         OFFICE OF INSPECTOR GENERAL



                                 Catalyst for Improving the Environment


Evaluation Report



       EPA Can Better Implement
       Its Strategy for Managing
       Contaminated Sediments
       Report No. 2006-P-00016

       March 15, 2006
Report Contributors:         Carolyn Copper
                             Patrick Milligan
                             Alicia Mariscal
                             Madeline Mullen
                             Michael Owen




Abbreviations

EPA            Environmental Protection Agency
NSQS           National Sediment Quality Survey
OIG            Office of Inspector General
OPPTS          Office of Prevention, Pesticides, and Toxic Substances
ORD            Office of Research and Development
OSWER          Office of Solid Waste and Emergency Response
OW             Office of Water
PCBs           Polychlorinated Biphenyls




Cover photo:     Fish advisory posted next to Duwamish River where tribal salmon fishermen
                 are in a boat, Seattle, Washington (EPA OIG photo)
                       U.S. Environmental Protection Agency                                           2006-P-00016
                                                                                                     March 15, 2006
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment

Why We Did This Review          EPA Can Better Implement Its Strategy
We sought to determine the
                                for Managing Contaminated Sediments
effectiveness and outcomes
achieved from the                What We Found
Environmental Protection
Agency’s (EPA’s)                EPA needs to better manage its efforts to clean up contaminated sediments on a
Contaminated Sediment           nationwide basis. Contaminated sediments are the soils, sands, organic matter, and
Management Strategy.            other minerals that accumulate at the bottom of a water body and contain toxic or
In particular, we evaluated     hazardous materials that may adversely affect human health and the environment.
whether Federal authorities     EPA made some progress with its Contaminated Sediment Management Strategy.
and resources provided          However, the Agency cannot assure that resources devoted to addressing
effective solutions, and how    contaminated sediments provide the most effective and efficient solutions for
well EPA measured Strategy      reducing the environmental and human health risks posed by this national problem.
effectiveness and assessed
contamination.                  Program offices generally did not use National Sediment Inventory data for
                                decision making, even though the inventory represents the most comprehensive
Background                      source of data on contaminated sediments in the United States. EPA did not
                                sufficiently coordinate contaminated sediment activities performed by various EPA
Although the extent of          program offices. The Agency did not develop sediment quality criteria to ensure
sediment contamination          the comparability of data gathered to assess sediment contamination and its effects.
remains uncertain, EPA          EPA contaminated sediment research efforts did not fully meet the Agency’s needs,
estimates that approximately    and EPA can improve coordination of its research efforts with those of other
10 percent of the sediment      Federal agencies. The Agency also did not establish cross-program performance
underlying the Nation’s         measures that fully evaluate the effectiveness of its Strategy and enable EPA to
surface water poses potential   determine its progress. Many of these issues occurred because no program office
risks to fish, as well as to    within EPA has responsibility for overseeing contaminated sediments.
humans and wildlife that eat
fish. As of 2004, there were    EPA’s 2004 National Sediment Quality Survey report did not provide a complete
3,221 fish consumption          assessment of the extent and severity of sediment contamination across the Nation,
advisories in place in the      nor fully meet the requirements of the Water Resources Development Act.
United States covering
24 percent of the Nation’s       What We Recommend
river miles and 35 percent of
its lake acres.                 We recommend that EPA assign responsibility for the oversight and evaluation of
                                the Agency’s Contaminated Sediment Management Strategy to a committee or an
For further information,
contact our Office of           office. We also recommend that EPA: develop and implement comprehensive
Congressional and Public        performance measures; evaluate the need to develop sediment quality criteria;
Liaison at (202) 566-2391.      continue to improve research coordination; develop and implement a plan for using
                                National Sediment Quality Survey reports; and develop and implement a plan to
To view the full report,
click on the following link:
                                provide a comprehensive national assessment of contaminated sediments. EPA
www.epa.gov/oig/reports/2006    generally agreed with the recommendations in the draft report. The Agency will
/20060315-2006-P-00016.pdf      need to provide further details on its plans to address Office of Inspector General
                                recommendations within 90 days.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460



                                                                                          OFFICE OF
                                                                                     INSPECTOR GENERAL


                                          March 15, 2006

MEMORANDUM

SUBJECT:               EPA Can Better Implement Its Strategy for Managing
                       Contaminated Sediments
                       Report No. 2006-P-00016

TO:                    Marcus Peacock
                       Deputy Administrator

                       Susan Bodine
                       Assistant Administrator for Solid Waste and Emergency Response

                       Benjamin Grumbles
                       Assistant Administrator for Water

                       George Gray, Ph.D.
                       Assistant Administrator for Research and Development

This is the final report on our evaluation of the Environmental Protection Agency’s (EPA’s)
Contaminated Sediment Management Strategy. This report contains findings that describe the
problems the Office of Inspector General (OIG) identified and corrective actions the OIG
recommends. This report represents the opinion of the OIG and the findings in this report do not
necessarily represent the final EPA position. Final determination on matters in the report will be
made by EPA managers in accordance with established resolution procedures. We received
EPA’s written comments on our draft report on January 9, 2006, and a revised response to one
recommendation on February 10, 2006.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 days of the date of this report. You should include a corrective action plan for
agreed upon actions, including milestone dates. We have no objections to the further release of
this report to the public. If you or your staff have questions regarding this report, please contact
me at (202) 566-0847 or Carolyn Copper, Acting Assistant Inspector General for Program
Evaluation, at (202) 566-0829.

                                                      Sincerely,


                                                      Bill A. Roderick
                                                      Acting Inspector General
                                 Table of Contents
At a Glance


Chapters
   1   Introduction ...........................................................................................................      1
               Purpose ..........................................................................................................    1
               Background ....................................................................................................       1
               Scope and Methodology.................................................................................                4

   2   EPA Has Not Fully Implemented Its Contaminated Sediment Strategy ...........                                                 5
               EPA Has Made Progress in Managing Contaminated Sediments..................                                            5
               Management Strategy Not Fully Implemented ...............................................                             6
                        National Sediment Inventory Generally Not Used for
                            Decision Making .............................................................................            6
                        Activities Not Fully Coordinated Across Program Offices.....................                                 7
                        National Sediment Quality Criteria Not Established .............................                             8
                        ORD Has Not Completely Met Priority Research Needs and
                           Could Enhance Coordination on Research Needs ........................                                     9
                        Performance Measures for Sediment Management Incomplete ..........                                          11
               Primary Causes for Not Implementing Strategy .............................................                           13
               Partial Implementation of Strategy May Limit Agency’s Effectiveness ..........                                       13
               Other Opportunities Exist to Improve Contaminated Sediment Efforts .........                                         14
               Recommendations .........................................................................................            15
               Agency Comments and OIG Evaluation.........................................................                          16

   3   EPA Has Not Completely Assessed Extent and
       Severity of Nation’s Sediment Contamination ...................................................                              19
               National Assessment Not Complete...............................................................                      19
               Assessment Incomplete Because Adequate Design Not Developed .............                                            20
               Recommendations .........................................................................................            21
               Agency Comments and OIG Evaluation.........................................................                          22


Appendices
   A   Details on Scope and Methodology.....................................................................                        24
   B   Agency Response to Draft Report.......................................................................                       27
   C   Map Overlay of Areas of Probable Concern and Fish Advisories ....................                                            38
   D   Distribution ...........................................................................................................     39




                                                               i
                                Chapter 1
                                 Introduction

Purpose
          This report focuses on the U.S. Environmental Protection Agency’s (EPA’s)
          efforts to manage and address contaminated sediments. Overall, we sought to
          determine the effectiveness and outcomes achieved from EPA's Contaminated
          Sediment Management Strategy. We addressed three specific questions:

          •   Do available Federal authorities and resources provide effective solutions to
              the challenges of contaminated sediments?
          •   How does EPA measure the effectiveness of its management strategy for
              contaminated sediments and what outcomes have been achieved?
          •   Has EPA completely assessed the extent and severity of sediment
              contamination in the United States?

Background
          Contaminated sediments are a national problem with serious implications for
          human health and the environment. EPA defines contaminated sediments as the
          soils, sand, organic matter, or minerals that accumulate on the bottom of a water
          body and contain toxic or hazardous materials that may adversely affect human
          health or the environment. EPA has studied data from 1,372 of the 2,111
          watersheds in the continental United States, and has identified 96 watersheds that
          contain “areas of probable concern.” These represent areas where probable
          adverse effects of sediment contamination are more likely to be found.

          EPA has not fully assessed the extent and severity of sediment contamination in
          the United States. Although the extent of sediment contamination remains
          uncertain, the Agency has estimated that approximately 10 percent of the
          sediment underlying our Nation’s surface water is sufficiently contaminated with
          toxic pollutants to pose potential risks to fish through the aquatic food chain, as
          well as humans and wildlife that eat fish. Fish consumption represents the most
          significant route of human exposure to many metals and organic compounds.
          Many surface waters have fish consumption advisories or fishing bans in place
          because of high concentrations of polychlorinated biphenyls (PCBs), mercury,
          dioxin, and other contaminants in sediments. As of 2004, there were 3,221 fish
          consumption advisories in place in the United States covering 24 percent of the
          Nation’s river miles and 35 percent of its lake acres.

          In 1998, EPA established the Contaminated Sediment Management Strategy to
          promote and ensure consistent consideration of risks posed by contaminated



                                            1
sediments. The Strategy summarizes EPA’s understanding of the extent and
severity of sediment contamination in the Nation's watersheds and establishes
four strategic goals:

            Table 1.1: Goals for Contaminated Sediment Management Strategy
    •    Prevent the volume of contaminated sediment from increasing.
    •    Reduce the volume of existing contaminated sediment.
    •    Ensure that sediment dredging and dredged material disposal are managed in an
         environmentally sound manner.
    •    Develop scientifically sound sediment management tools for use in pollution
         prevention, source control, remediation, and dredged material management.



In addition, the Strategy establishes a cross-program policy framework. The
Strategy emphasizes the importance of coordination among EPA program offices
and with other agencies for successful implementation.

EPA has authority under several statutes to address contaminated sediment issues.
The primary statutes include:

                              Table 1.2: Statutes and Authorities
 Comprehensive Environmental               The “Superfund” Act provides EPA authority to
 Response, Compensation, and               conduct or compel remedial actions for
 Liability Act                             contaminated sediments.
 Clean Water Act                           Provides EPA authority to address sources of
                                           contaminated sediments through regulation of
                                           water pollutant discharges.
 Water Resources Development               Requires EPA to conduct a comprehensive and
 Act                                       continuing program to assess aquatic sediment
                                           quality in the United States.
 Great Lakes Legacy Act                    Provides EPA specific authority to remediate
                                           contaminated sediment in the Great Lakes.



EPA does not have sufficient information to provide accurate national estimates
on the volume of contaminated sediments and their remediation costs. However,
where data exist for specific sites, the cost to address the contamination will be in
the billions of dollars. For example:

•       Superfund Records of Decision for 55 Tier 1 contaminated sediment sites
        indicate that approximately $2.9 billion will be required to remediate the sites.
        These sites have a minimum of 10,000 cubic yards, or 5 acres, of
        contamination. The estimate does not include sites with contaminated
        sediments on the National Priorities List where cleanup decisions have not yet


                                       2
        been made. As of 2005, there were approximately 60 additional sites without
        Records of Decision that may be classified as Tier 1 sites in the future.
        Although Superfund money is (or will be) required to pay for the remediation
        of some of these sites, responsible parties are (or will be) required to pay for
        remediation for the majority of these sites.

•       EPA’s Great Lakes National Program Office estimates that a total volume of
        76,505,439 cubic yards of contaminated sediments in the Great Lakes require
        remediation at an approximate cost of $1.6 to $4.4 billion. The Great Lakes
        Legacy Act provides EPA $270 million over 5 years, beginning in Fiscal Year
        2004, to address contaminated sediments in the Great Lakes.

The Contaminated Sediment Management Strategy established roles for several
EPA offices involved with contaminated sediments, including:

                      Table 1.3: Primary EPA Program Offices Involved
                       with Contaminated Sediments and Their Roles
 Office of Water (OW)                         Coordinate implementation of the Strategy and
                                              prevent and control sediment contamination
                                              through the Clean Water Act.
 Office of Solid Waste and                    Remediate contaminated sediments that
 Emergency Response (OSWER)                   adversely affect the Nation’s waterbodies in
                                              order to limit serious risks to human health and
                                              the environment.
 Office of Prevention, Pesticides,            Use new and existing chemical registration
 and Toxic Substances (OPPTS)                 programs to reduce the potential of sediment
                                              contamination from pesticides and toxic
                                              substances.
 Office of Research and                       Conduct comprehensive and coordinated
 Development (ORD)                            research on contaminated sediment, and support
                                              EPA program offices.



The Strategy also outlines the roles of several other Federal agencies in managing
contaminated sediments, including:

         Table 1.4: Other Federal Agencies Involved with
                     Contaminated Sediments
    •    U.S. Army Corps of Engineers
    •    National Oceanic and Atmospheric Administration
    •    U.S. Fish and Wildlife Service
    •    U.S. Geological Survey
    •    Department of the Navy




                                          3
         The U.S. Army Corps of Engineers, National Oceanic and Atmospheric
         Administration, U.S. Geological Survey, and Department of the Navy provided
         estimated information indicating that they budgeted approximately $69 million
         for contaminated sediment activities during Fiscal Years 2002 through 2005.
         (Budget information was not available from the U.S. Fish and Wildlife Service.)
         Some of the funding occurred through interagency agreements with EPA. Most
         of the budget information provided by these agencies relates to research. In
         addition, the U.S. Army Corps of Engineers issues permits for and conducts
         dredging of navigable waters, which can involve contaminated sediment removal.
         Also, the Department of the Navy conducts remedial actions on contaminated
         sediments as a responsible party. Other Federal agencies, such as the Department
         of Energy and Department of the Army, also devote resources to contaminated
         sediments.

Scope and Methodology

         We conducted our evaluation from September 2004 to August 2005. We
         performed our evaluation in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We considered the
         findings of prior Office of Inspector General (OIG) and Government
         Accountability Office reports related to contaminated sediment issues.

         To evaluate the effectiveness and outcomes achieved from EPA's Strategy, we
         reviewed documents and records related to the management of contaminated
         sediments, including databases and Internet Web sites, and interviewed EPA
         officials from OSWER, OW, OPPTS, and ORD. We also interviewed EPA
         officials from the Great Lakes National Program Office and four regions. In
         addition, we interviewed officials from various other Federal agencies, from six
         States and from the Association of State and Territorial Solid Waste Management
         Officials.

         Appendix A provides further details on our scope and methodology.




                                          4
                               Chapter 2
             EPA Has Not Fully Implemented Its
              Contaminated Sediment Strategy
         Although EPA made some progress in managing contaminated sediments, it did
         not fully implement its Contaminated Sediment Management Strategy. Program
         offices involved with addressing contaminated sediments did not:

         •   Use National Sediment Inventory data for decision making;
         •   Fully coordinate their activities;
         •   Develop sediment quality criteria;
         •   Fully meet research needs or coordinate research with other Federal agencies;
             and/or
         •   Establish adequate performance measures.

         Also, EPA could enhance remediation efforts by increasing the use of the
         watershed approach and the Water Resources Development Act. The conditions
         primarily occurred because no program office assumed responsibility for
         oversight and overall coordination of the Strategy, and EPA has not updated the
         Strategy since implementation. Due to incomplete Strategy implementation, EPA
         cannot assure that resources devoted to addressing contaminated sediments
         provide the most effective and efficient solutions for reducing the environmental
         and human health risks posed by this national problem.

EPA Has Made Progress in Managing Contaminated Sediments
         Various EPA program offices made some progress regarding the Strategy’s goals
         and the management of contaminated sediments. For example:

         •   OW published the 1997 and 2004 National Sediment Quality Survey (NSQS)
             reports for Congress and issued guidance documents regarding sediment
             assessments.

         •   OSWER established the Contaminated Sediments Technical Advisory Group
             to oversee work at complex Superfund sediment sites, and the Superfund
             Sediment Resource Center to assist EPA staff on technical issues regarding
             sediment site cleanup. OSWER provided two important guidance documents
             - the Principles for Managing Contaminated Sediment Risks at Hazardous
             Waste Sites (2002), and the Contaminated Sediment Remediation Guidance
             for Hazardous Waste Sites (2005) - to help remedial project managers make
             scientifically sound and nationally consistent risk management decisions.
             OSWER also sponsored or co-sponsored several national meetings on



                                          5
              characterizing and managing contaminated sediment. In addition, OSWER
              provided Federal and State officials training on Sediment Remediation:
              Technical Considerations for Evaluating and Implementing Dredging and
              Capping Remedies.

         •    ORD conducted research on issues such as site characterization, ecological
              and human health risk, and remedy development and evaluation. ORD also
              held national meetings and workshops on the management and treatment of
              contaminated sediments.

         •    OPPTS created a Draft National Action Plan in 2000 with links to fish
              advisories for Level 1 Pesticides and a 1998 Multimedia Strategy for Priority
              Persistent, Bioaccumulative, and Toxic Pollutants. In addition, OPPTS
              developed technical guidance documents on pesticides to evaluate their
              potential to run off or leach into surface waters, or accumulate in sediment.

Management Strategy Not Fully Implemented
         Although EPA made some progress in managing and addressing contaminated
         sediments, it did not fully implement its Strategy. Areas where EPA did not
         sufficiently implement the Strategy include: (1) using National Sediment
         Inventory data for decision making, (2) coordinating activities, (3) developing
         sediment quality criteria, (4) meeting research needs, and (5) measuring
         performance. Details follow.

         National Sediment Inventory Generally Not Used for Decision Making

         EPA program offices generally did not use National Sediment Inventory data as
         part of the decision process for assessment, pollution prevention, and remediation
         activities as outlined in the Strategy. Under the Strategy, the Agency intended to
         use the inventory for several purposes, including those noted in Table 2.1.

                           Table 2.1: Purposes for National Sediment Inventory
          •    Identify sediment sites for consideration for assessment under the
               Comprehensive Environmental Response, Compensation, and Liability Act.
          •    Identify problem pesticides and toxic substances that may require further regulation
               or evaluation for possible enforcement action.
          •    Identify impaired waters for National Water Quality Inventory reports or possible
               Total Maximum Daily Load development.
          •    Select industries for effluent guidelines development.
          •    Identify chemicals of concern for sediment criteria development and evaluate the
               effectiveness of technology-based effluent guidelines, water quality-based permit
               limits, and Total Maximum Daily Loads.

         The National Sediment Inventory, most recently updated in 2004, is the most
         comprehensive source of information on the extent of contaminated sediments in


                                              6
the United States. The inventory includes 4.6 million records of sediment
chemistry, tissue residue, and toxicity data, for more than 50,000 monitoring
stations across the country. EPA obtained this information from various data
storage systems and monitoring programs of the Agency and other entities. In
1997 and again in 2004, OW identified 96 watersheds containing areas of
probable concern through an analysis of data in the National Sediment Inventory.
These areas represented watersheds where sampling data indicated contamination
levels that may pose threats to organisms at the bottom of waterbodies and
resident fish. EPA reported the results of these analyses in its 1997 and 2004
NSQS reports. Both NSQS reports disclosed that further analysis should be
conducted to determine the extent of contamination and appropriate and cost-
effective actions.

According to OW and OSWER officials, their offices generally have not used the
National Sediment Inventory and NSQS reports as part of assessment, pollution
prevention, and/or remediation activities and decisions for contaminated
sediments. The Strategy indicates the inventory and NSQS reports should be used
to assist EPA program offices with making regulatory decisions for contaminated
sediment issues. However, OW and OSWER based their decisions primarily on
data specific to their individual programs. As a result, most of the Agency’s
decisions for managing and addressing human health and ecological risks within
these areas of probable concern may not have considered data available from
other sources included in the National Sediment Inventory. In 2004, OW did
consider using National Sediment Inventory data in its plan for determining the
industrial categories for which to develop effluent guidelines.

The National Sediment Inventory and NSQS reports, as appropriate, should
complement other sources of information used by EPA program offices for
making decisions. For example, we overlaid the data for the 96 areas of probable
concern identified in the 2004 NSQS report with the data in OW's 2004 National
Listing of Fish Advisories, using Geographic Information System software. We
provide the overlay of the two data sets in Appendix C. The overlay shows that
most of the areas of probable concern either had fish advisories or were adjacent
to waterbodies with them. Using the NSQS data in this way provides additional,
although qualified, information on potential human health and ecological risks in
surface waters across the country.

Activities Not Fully Coordinated Across Program Offices

The Contaminated Sediment Management Strategy, as well as EPA’s
Contaminated Sediments Action Plan that supplements the Strategy, established a
framework and actions intended to enhance cross-program coordination and
collaboration in addressing contaminated sediments. The Strategy notes that
implementation of statutory requirements has created inconsistencies in
addressing contaminated sediments. However, EPA’s program offices did not




                                7
coordinate most of their contaminated sediment activities, and the Agency’s
primary focus has been limited to remediation activities.

Our interviews with OW, OSWER, and OPPTS officials disclosed that the offices
generally did not collaborate and coordinate on the majority of their activities
involving the assessment, prevention, control, and remediation of contaminated
sediments. Since at least 2002, EPA has primarily focused on addressing
contaminated sediment issues through Superfund remedial actions. EPA has
placed little emphasis on the prevention and source control aspects of
contaminated sediments. Further, EPA’s activities have been fragmented and
“stovepiped” within program offices. For example, OW has not coordinated
source control programs, such as National Pollutant Discharge Elimination
System permitting, with OSWER’s remediation activities for sites with
contaminated sediments at the national level.

Although EPA generally did not coordinate activities across programs, OW,
OSWER, and ORD did collaborate and coordinate on some activities related to
contaminated sediments. For example, these offices coordinated in the
development and release of the Contaminated Sediments Action Plan in 2002.
This plan reflected the goals of the Contaminated Sediment Management Strategy
and served as a tool for EPA senior managers to clearly coordinate cross-program
contaminated sediment activities. OW, OSWER, ORD, and the Great Lakes
National Program Office also collaborated in 2004 on the development of the
Agency’s Contaminated Sediment Science Priorities, which establish Agency-
wide science activities that affect contaminated sediments.

EPA’s inability to complete the Contaminated Sediment Assessment Pilot as
outlined by the Contaminated Sediments Action Plan further illustrates the need
for improvements in coordination and collaboration between program offices.
EPA planned to begin the Pilot in the fall of 2002 and facilitate cross-program
coordination between remedial investigation/feasibility study evaluations and
Total Maximum Daily Load modeling. However, EPA stopped the project after
OW staff selected potential sites for the Pilot because OSWER and OW were not
able to successfully coordinate and collaborate on the project design.

Officials from two States also said EPA could improve its coordination between
its program offices as well as with States. For example, one State official said
that some EPA Regional Superfund Program remedial project managers do not
consider various Clean Water Act requirements when overlapping programs
perform work at contaminated sediment sites.

National Sediment Quality Criteria Not Established

EPA did not develop and implement numerical sediment quality criteria as
specified by the Strategy. EPA established this requirement to ensure the
comparability of data gathered to assess sediment contamination and its effects.



                                 8
Although not intended as mandatory standards, EPA expected the criteria to assist
in the ranking of sites needing further assessment, target hot spots within an area
for remediation, and serve as a partial basis for the development of State sediment
quality standards.

The Strategy assigned OW the responsibility for developing the criteria. OW
officials said that they did not develop criteria because of scientific and policy
disagreements within and outside the Agency. Instead, the Agency produced
equilibrium partitioning sediment benchmark documents – for dieldrin, endrin,
metal mixtures, and polycyclic aromatic hydrocarbon mixtures – for voluntary use
by its program offices. The Agency presented these benchmarks as complements
to numerous existing sediment assessment tools developed by EPA and others.
As a result, EPA has no assurance that regulatory decisions made within and
outside the Agency are based on comparable criteria and are consistent.

Although EPA has not developed and implemented criteria, the Agency could
develop standards or guidelines as one State and Canada have done. Washington
represents the only State that has developed legally enforceable water and
sediment quality marine standards. According to a Washington State official, the
standards have helped in the Superfund process because they provide authority
and consistency for remedy decisions. Likewise, Canada developed Sediment
Quality Guidelines based on scientifically derived sediment quality targets, and
EPA could also consider that approach. Canada’s guidelines are not regarded as
blanket values for national sediment quality and may be modified according to
local conditions. Interviewed officials from OSWER, the Association of State
and Territorial Solid Waste Management Officials, and three States said they
believed that some form of national sediment standards or screening criteria could
help to speed projects toward cleanup. Officials from OSWER and the
Association of State and Territorial Solid Waste Management Officials said
criteria would make assessment and cleanup easier, faster, and less expensive.

ORD Has Not Completely Met Priority Research Needs and Could
Enhance Coordination on Research Needs

ORD has not fully addressed OSWER’s high priority research needs for
contaminated sediments. OSWER officials said that one of their highest priorities
for research on contaminated sediments is remediation alternatives for the top
three remedies (dredging, capping, and monitored natural recovery). OSWER
officials said this research is important to better understand where and how each
type of approach can be most effective. However, for Fiscal Years 2002-2005,
only about 10 percent of ORD’s contaminated sediment publications focused on
remediation alternatives; the majority of completed research addressed
contaminant characteristics. According to OSWER officials, they could not
determine whether ORD met its priorities prior to 2005 because OSWER and
ORD had not established an effective communication process. In 2005, OSWER




                                 9
and ORD formed the Contaminated Sediment Regional Research Advisory
Workgroup to enhance communication on research needs.

Opportunities also exist for ORD to make its completed research more readily
accessible to OSWER and the regions. For example, until recently, OSWER
officials could not obtain a monitored natural recovery document from ORD even
though ORD completed the document a year earlier. ORD usually informs
OSWER of completed research products through periodic distribution of research
lists and e-mails, and ORD posts most of these research products in different
formats on ORD’s main Web page and three laboratory Web sites. This does not
provide adequate visibility; OSWER officials said ORD could improve access by
developing a set of easily accessible, media-specific Web sites. However,
OSWER and ORD expect the recently formed Contaminated Sediment Regional
Research Advisory Workgroup to improve communications about completed
ORD research.

Further, opportunities exist for ORD to better coordinate its research activities
with other Federal agencies that conduct research addressing contaminated
sediment issues. EPA’s Science Advisory Board, officials from other Federal
agencies, and our own review disclosed that ORD needs to enhance such
coordination. In its review of the 2002 Draft Contaminated Sediments Science
Plan to establish research priorities, the Science Advisory Board cited the absence
of information on research conducted on sediments outside of the Agency as a
critical weakness. In 2004, EPA revised the plan and disclosed that it considered
research by other Federal agencies as part of the plan’s development. However,
officials from the other agencies we interviewed said ORD did not routinely
coordinate with their agencies on research and did not consider all their research
addressing contaminated sediments.

Our review of research for contaminated sediments completed by ORD and
selected other Federal agencies during Fiscal Years 2002 through 2005 showed
that the other agencies conducted a substantial amount of the research (as shown
in Figure 2.1 below). The other agencies included the U.S. Army Corps of
Engineers, National Oceanic and Atmospheric Administration, U.S. Fish and
Wildlife Service, U.S. Geological Survey, and Department of the Navy. The
combined research products of the selected Federal agencies for most topics on
contaminated sediments exceeded EPA’s research on the topics. This clearly
suggests that EPA and other agencies could enhance Federally-funded research
through improved coordination and collaboration. For example, EPA and the
other agencies may achieve cost efficiencies through specialization on research
topics.




                                10
                         Figure 2.1: Contaminated sediment research publication totals by topic

                               EPA & Selected Other Federal Agency Contaminated
                                        Sediment Research FY2002-2005

                    100

                        75
Publications




                                                                                                  EPA


                        50                                                                        Other
                                                                                                  Selected
                                                                                                  Agencies

                        25

                         0
                                                                  ks




                                                                  ks




                                                                 es




                                                                    s
                                                                    y




                                                                 es
                                                                  e
                                                  en els




                                                                  s
                                                                    t




                                                  ch ion
                                                                   t

                                                  ea ous
                                                  en ing
                                                              en




                                                                ty




                                                               tic
                                                                lit




                                                               or




                                                               al
                                                              nc
                                                              ar




                                                               is




                                                              gi

                                                            qu


                                                             ci
                                                            ua




                                                           sp




                                                            is
                                                            R
                                                             v




                                                            et
                                                             t
                                                         em




                                                          m




                                                           lo
                                                            r




                                                         da


                                                            a
                                                           e




                                                          xi
                                                        Le
                                                        ito




                                                         ni




                                                        er
                                          t C s/M
                                                      tQ




                                                          l
                                            an lan




                                                      no
                                                      ch




                                                      lth
                                                        n




                                                       u




                                                     To
                                                      ui
                                                    ag




                                                    ch
                                                    ra




                                                     ct
                                                   on




                                                    m
                                                    d




                                                  /G
                                                    l




                                                  ra
                                                   T
                                                 un




                                                  nt
                                      um ce




                                                Te
                                                 cu
                                                an


                                                 M




                                              Te
                                               /B




                                                H

                                               ks




                                   in me
                                               m




                                              ha
                                                &
                                              ro




                                              is




                                             ac
                                              M




                                              n
                                              i



                                            es




                                            or
                                            te

                                            M
                                           ed

                                           kg




                                          tio
                                            e
                                           io




                                            e
                   ed




                                        Fa




                                       ew




                                         iv
                                        lin




                                        El
                                        B
                                      ac
                                       /S




                                       ia




                                      an
                                        t
                 dg




                                     va
                                    de




                                    ed
                                   am
                                    er


                                     B




                                    H
               re




                                 no
                                  ui
                                  at




                                em




                                 m
                                 &

                                Fr
               D




                                G
                                W




                               In




                               ta
                              al




                              R
                              y




                          on
                           ic
                          lit




                        og




                         C
                       ua




                      ol
                     Q




                    Ec




                                                               Topics




                        According to EPA and other Federal agency officials, EPA recently made some
                        progress collaborating with other Federal agencies on research. They cited as an
                        example a research collaboration meeting that took place in September 2005 in
                        Rhode Island with participation by EPA, Department of the Navy, and U.S. Army
                        Corps of Engineers officials.

                        Performance Measures for Sediment Management Incomplete

                        EPA did not establish cross-program performance measures that fully evaluate the
                        effectiveness of actions taken as part of the Contaminated Sediment Management
                        Strategy.

                        The Government Performance and Results Act holds Federal agencies
                        accountable for using resources wisely and achieving program results. The Act
                        requires agencies to develop plans for what they intend to accomplish, measure
                        how well they do, make appropriate decisions based on that information, and
                        communicate performance information to Congress and the public.

                        As discussed in Chapters 1 through 3, EPA has devoted resources toward
                        managing contaminated sediments. However, OW, OSWER, and other program
                        offices with responsibilities for contaminated sediments have not adequately
                        established performance measures for activities conducted under the Strategy’s


                                                          11
four goals. EPA’s 2003-2008 Strategic Plan includes measures related to
contaminated sediments that partially cover two of the four goals:

•   Subobjective 2.1.2, “Fish and Shellfish Safe to Eat,” provides partial coverage
    of the Strategy’s goals for preventing and reducing the volume of existing
    contaminated sediment by measuring reductions in the number of fish
    advisories.

•   Subobjective 4.3.3, “Improve the Health of Great Lakes Ecosystems,”
    provides some coverage of the Strategy’s goals of preventing an increase and
    reducing the volume of existing contaminated sediment by measuring the
    reduction of PCBs in fish and the volume of contaminated sediments in the
    Great Lakes. This measure does not cover Agency activities outside the Great
    Lakes.

However, these measures do not address the Strategy’s other two goals of
(1) dredging and dredged material disposal and (2) scientifically sound sediment
management.

OSWER has recognized the need for better measures for contaminated sediment
remediation activities to help measure overall remedy effectiveness. As a result,
OSWER has taken three important steps toward establishing performance
measures for the remediation of contaminated sediments at Superfund sites.

•   OSWER’s Principles for Managing Contaminated Sediment Risks at
    Hazardous Waste Sites (2002) specifies the use of post-remediation
    monitoring data to measure ecological outcomes from remediation activities.
    The principles state that although it is generally more practical to use
    measures such as contaminant concentrations in sediment to identify areas to
    be remediated, other measures should be used to assess whether human health
    and/or ecological risk reduction goals are being met. For example, using
    measured concentrations of PCBs in fish is suggested as the most relevant
    means of measuring exposure to PCBs in contaminated sediments.

•   OSWER’s Contaminated Sediment Remediation Guidance for Hazardous
    Waste Sites (2005) provides additional guidance to help remedial project
    managers develop meaningful measures based on outcomes. The guidance
    includes steps such as identifying monitoring objectives and designing the
    monitoring plan while considering a combination of physical, chemical, and
    biological methods to determine potential concerns.

•   OSWER implemented the Contaminated Sediment Site Tracking Tool to
    evaluate the overall effectiveness of remedies for long-term risk reduction.
    OSWER developed the tool to facilitate evaluation of remedy effectiveness at
    Superfund contaminated sediment sites. Although OSWER implemented the
    tool in 2004, data is missing for many sites. OSWER is working to obtain


                                 12
             complete performance data, and OSWER officials said they plan to evaluate
             effectiveness of remedial actions at contaminated sediment sites after the tool
             includes the necessary data. The analysis should assist the Agency with
             measuring the effectiveness of its activities under the Strategy’s remediation
             goal.

Primary Causes for Not Implementing Strategy
          We noted two primary causes for EPA’s program offices not implementing the
          Contaminated Sediment Management Strategy: (1) no program office has
          assumed responsibility for oversight and overall coordination of the Strategy; and
          (2) EPA has not updated the Strategy since implementation.

          There has been no overall oversight of the Strategy since at least 2002. EPA’s
          Strategy specifies that OW’s Office of Science and Technology has responsibility
          for coordinating the implementation of the Strategy and that the Agency-wide
          Sediment Steering Committee provides oversight. However, as of 2002, the
          Office of Science and Technology and the Sediment Steering Committee stopped
          their coordination and oversight activities. OW officials said the Office of
          Science and Technology stopped its oversight because OW made a decision to
          focus on other higher priority issues. Although the Strategy required OW and
          OSWER to participate in the Sediment Steering Committee, officials from these
          offices could not explain why the Committee has not continued to perform its
          oversight role.

          EPA has not updated the Strategy since implementing it in 1998. Although EPA
          has made some progress toward managing contaminated sediments, the Agency
          did not revise the Strategy to reflect these accomplishments or establish additional
          actions that may be necessary based on lessons learned since 1998. For example,
          the 1998 Strategy does not: (1) include the roles and responsibilities of the
          Contaminated Sediment Technical Advisory Group and Superfund Sediment
          Resource Center; (2) reflect the remediation approach outlined by OSWER’s
          Principles for Managing Contaminated Sediment Risks at Hazardous Waste Sites
          document, and (3) consider additional actions necessary to prevent and control
          contaminated sediments. In 2002, the Agency issued the Contaminated Sediments
          Action Plan that outlines additional actions consistent with the intent of the
          Strategy. However, the Action Plan does not completely update the Strategy
          because it primarily focuses on remediation activities and provides minimal
          coverage for contaminated sediment prevention and control activities.

Partial Implementation of Strategy May Limit Agency’s Effectiveness
          EPA’s current focus on addressing contaminated sediments through the
          Superfund Program and the lack of coordination among program offices will not
          enable it to sufficiently address the contaminated sediments problem.
          Contaminated sediments are multi-media, cross-program, issues. EPA cannot


                                           13
          assure that resources it expends on contaminated sediments provide the most
          effective and efficient solutions for reducing the environmental and human health
          risks posed by this national problem. Currently, EPA cannot assure that it bases
          decisions for managing and remediating contaminated sediments on all available
          information because program offices have not used the National Sediment
          Inventory and NSQS reports. Without cross-program coordination and prescribed
          national sediment criteria, the Agency has limited assurance that it consistently
          and effectively assesses risks posed by contaminated sediments. EPA’s primary
          focus on addressing contaminated sediments through the Superfund Program,
          rather than a more comprehensive and integrated approach, limits the Agency’s
          ability to prevent future sites and to ensure the application of consistent
          assessment standards. EPA also needs to improve its internal research efforts and
          better coordinate research efforts with other Federal agencies to avoid duplication
          and gain the maximum benefit from research dollars.

Other Opportunities Exist to Improve Contaminated Sediment Efforts
          EPA could enhance its contaminated sediments efforts through the watershed
          approach, which the Agency has already used at selected sites. The premise of
          the watershed approach is that EPA can best solve many water quality and
          ecosystem problems at the watershed level rather than the individual waterbody or
          discharger level. This approach requires cross-program coordination, targeting
          priority problems, promoting stakeholder involvement, integrating multiple
          agencies' expertise and authority, and measuring success.

          OSWER’s Urban Rivers Restoration Initiative uses the watershed approach to
          address contaminated sediments at eight pilot sites, including two on the National
          Priorities List. The initiative intends to bring about increased coordination and
          cooperation within EPA and with the U.S. Army Corps of Engineers to restore
          degraded urban rivers. OSWER expects the eight pilot projects to result in less
          duplication of effort; faster and cheaper assessment and cleanup; leveraging and
          more effective use of funds; and better targeted, holistic remedies. However,
          although EPA has used the watershed approach for selected sites involving
          contaminated sediments, it has not yet pursued the approach to deal with
          contaminated sediment issues on a national scale.

          EPA can also enhance contaminated sediment efforts by increasing the use of the
          U.S. Army Corps of Engineers’ Water Resources Development Act authority.
          The Act authorizes the U.S. Army Corps of Engineers to remove contaminated
          sediments adjacent to navigation channels, but these removal actions require
          specific appropriations from Congress and funding matches by State or local
          sponsors. The Act authorizes additional funding and added a mechanism for
          more comprehensive evaluation and resolution of sediment issues. The Act has
          been used to remove contaminated sediments adjacent to two sites on the National
          Priorities List. According to OSWER officials, a number of other sediment sites
          could potentially benefit from the Act’s funding, but liability and funding issues


                                          14
        have prevented further use of the authority. OSWER recently held a meeting with
        the U.S. Army Corps of Engineers and formed a workgroup to resolve those
        issues and consider increased use of the Water Resources Development Act
        authority at more contaminated sediment sites.

Recommendations

        We recommend that the Deputy Administrator:

        2-1    Establish a committee or designate an office to assume responsibility for
               the oversight and evaluation of the Agency’s Contaminated Sediment
               Management Strategy. The designated office or committee should:

               a. Ensure program offices with responsibilities for managing and
                  addressing contaminated sediment issues use the National Sediment
                  Inventory as part of their decision making processes.

               b. Ensure contaminated sediment issues are managed and addressed
                  through a cross-program approach, as intended by the Strategy, that
                  places emphasis on prevention and control of contaminated sediments.

               c. Update the Strategy to reflect accomplishments made on managing
                  and addressing contaminated sediments and incorporate additional
                  actions that Agency program offices should take.

        We recommend that the Assistant Administrator for Water and the Assistant
        Administrator for Solid Waste and Emergency Response:

        2-2    Collaborate with other program offices with responsibilities under the
               Contaminated Sediment Management Strategy to develop and implement
               comprehensive and coordinated performance measures for preventing,
               assessing, and remediating contaminated sediment issues.

        We recommend that the Assistant Administrator for Water:

        2-3    Evaluate and report on the need to develop numerical sediment quality
               criteria to assist in the ranking of sites needing further assessment, target
               hot spots within an area for remediation, and serve as a partial basis for the
               development of State sediment quality standards.

        We recommend that the Acting Assistant Administrator for Solid Waste and
        Emergency Response:

        2-4    Use the watershed approach, including concepts from the Urban Rivers
               Restoration Initiative, at contaminated sediment National Priorities List
               sites in high priority watersheds.


                                         15
         2-5    Continue working with the U.S. Army Corps of Engineers to expand the
                use of Water Resources Development Act funding for additional
                contaminated sediments adjacent to National Priorities List sites to
                provide more comprehensive evaluations and resolutions of contaminated
                sediment issues.

         We recommend that the Assistant Administrator for Research and Development:

         2-6    Work with the Assistant Administrator for OSWER to continue improving
                communication between the offices on contaminated sediment research
                priorities and status of research products. In addition, develop a system
                that provides OSWER and other potential users with easy access to all
                completed contaminated sediment research projects.

         2-7    Continue to enhance collaboration and coordination between EPA and
                other Federal agencies on research activities. At a minimum, the
                coordinated activities should ensure that research is not duplicated by the
                agencies and that Federal resources are leveraged through coordinated
                research efforts that meet the needs of multiple agencies.

Agency Comments and OIG Evaluation

         EPA generally agreed with the recommendations in the draft report. The Agency
         will need to provide further details on its plans to address OIG recommendations
         within 90 days. The Agency also provided suggested revisions to some details in
         the report and the recommendations, and we made revisions as appropriate.

         Regarding Recommendation 2-1, the Agency agreed to establish an OW-led intra-
         agency committee by March 17, 2006 to determine the next steps and develop an
         initial workplan. Also, the Agency said it would revisit the 1998 Strategy to
         assess the degree to which EPA’s actions achieved the Strategy’s goals. The
         Agency also believes that it should focus attention on emerging contaminants due
         to their potential to adversely affect human health and the environment. The
         Agency did not comment on whether it agreed with the cross-program approach
         or whether it would use the National Sediment Inventory as part of its decision
         making processes, as suggested by the recommendation.

         The Agency’s planned action appears to generally meet the intent of
         Recommendation 2-1. In the Agency’s response to our final report, it will need to
         specify the office or committee that will assume responsibility for oversight and
         evaluation of the Strategy. The Agency will also need to describe the actions
         taken or planned to ensure that the Agency uses the National Sediment Inventory
         as part of EPA’s decision-making, contaminated sediment issues are managed and
         addressed through a cross-program approach, and the Strategy is updated. In
         addition, the Agency needs to provide milestones for completing each of these
         actions.


                                         16
Regarding Recommendation 2-2, the Agency agreed to look at performance
measures as part of developing a new Strategic Plan, but stated that it already has
indicators reflecting the integration of all stressors, including sediments. The
Agency cited Subobjective 2.2.1 from EPA’s current Strategic Plan as an example
of an indicator meeting the overall goal of preventing ecological and human
health impairment by increasing the number of watersheds where water quality
standards are met. We acknowledge that EPA has some indicators that partially
cover contaminated sediment activities. However, Subobjective 2.2.1 and the
other measures evaluated do not provide comprehensive measures that assess the
effectiveness of all Agency program activities under the Contaminated Sediment
Management Strategy, and such comprehensive measures are needed. In its
response to the final report, the Agency must describe actions taken or planned to
develop and implement comprehensive performance measures for managing and
addressing contaminated sediments. Also, the Agency will need to provide
milestones for completing these actions.

In responding to Recommendation 2-3 the Agency provided formal written
comments followed up by clarifying remarks that generally meet the intent of our
recommendation. Specifically, we were told that the Agency published several
chemical-specific sediment benchmarks to provide guidance to regions, States and
the regulated community in assessing risk to aquatic organisms from sediment
contamination. We were told EPA supports the use of these benchmarks by the
States and Tribes and will continue to evaluate the need for additional sediment
management tools such as these within the context of its review of the
achievements of the 1998 Contaminated Sediment Management Strategy. In its
90-day response, the Agency will need to describe specific actions taken or
planned to evaluate and report on the need for numerical sediment quality criteria.
Also, the Agency needs to provide milestones for completing these actions.

The Agency suggested that we make Recommendation 2-4 more specific and
address National Priorities List sites with contaminated sediments in priority
watersheds. The Agency said it endorses the cross-programmatic watershed
approach at selected high priority sites. The Agency also said it has drafted the
guidance, Integrating Water and Waste Programs to Restore Watersheds and
intends to train regional staff on using the guidance. We agree that the watershed
approach should focus on priority watersheds and, as a result, revised
Recommendation 2-4 to reflect this focus. While EPA agreed to provide
guidance and training on watershed approaches, the Agency will need to describe
in its response to the final report the specific actions taken or planned to apply the
watershed approach at contaminated sediment National Priorities List sites in
priority watersheds. Also, the Agency must provide milestones for completing
these actions.

The Agency generally agreed with Recommendation 2-5 and said it convened a
workgroup to resolve some of the issues associated with the use of the Water
Resources Development Act at contaminated sediment sites. However, the


                                  17
response did not disclose whether the workgroup intended to resolve all major
issues associated with use of the Act. The Agency will need to describe in its
response to the final report how it plans to resolve all the major issues to increase
the use of the Water Resources Development Act funding for contaminated
sediments adjacent to National Priorities List sites. Also, the Agency needs to
provide a milestone for completing this action.

EPA partially agreed with Recommendation 2-6, and asserted that ORD has an
effective process in place for OSWER to communicate research priorities. The
Agency indicated ORD has created avenues for OSWER to communicate its
research needs through teams, progress reviews, and meetings. The Agency
agreed that communicating on research products specific to contaminated
sediments and providing access to those products is important, and will attempt to
improve communications and access. We modified Recommendation 2-6 to
reflect recent communication enhancements. We are pleased that the Agency
plans to enhance communication on the status of research projects and access to
completed research projects. In the Agency’s response to the final report, it will
need to describe specific actions it plans to take to improve communication
between ORD and OSWER regarding contaminated sediment research priorities
and status of research products. Also, the Agency will need to describe specific
actions taken or planned to improve access to research products. The Agency will
also need to provide milestones for completing these actions.

The Agency requested that we revise Recommendation 2-7 to recognize ongoing
collaboration activities with other Federal agencies. The Agency also described
recent actions taken and planned that meet the intent of the recommendation.
These actions include working with OSWER on a Memorandum of
Understanding with the U.S. Army Corps of Engineers and the Department of the
Navy, and workgroup and task force activities with various Federal agencies. We
revised Recommendation 2-7 to reflect ORD’s ongoing coordination activities.
The Agency’s taken and planned actions meet the intent of our recommendation.
However, in its response to the final report, the Agency will need to provide
milestones for completing these actions.

The Agency’s complete response is in Appendix B.




                                  18
                               Chapter 3
    EPA Has Not Completely Assessed Extent and
     Severity of Nation’s Sediment Contamination
         EPA’s 2004 NSQS report did not provide a complete assessment of the extent and
         severity of sediment contamination across the Nation, nor did it fully meet the
         requirements of the Water Resources Development Act. This reporting issue
         occurred because OW relied on known data sources and did not design a method
         to acquire and compile data and address data limitation issues. As a result, EPA
         cannot accurately estimate the volume and risks posed by contaminated sediments
         on a national scale. Such a national assessment would better enable EPA to
         ensure that it devotes resources to contaminated sediment issues that pose the
         greatest risks to human health and the environment.

National Assessment Not Complete
         EPA spent over $600,000 to acquire, compile, and assess the data in the 2004
         NSQS report. OW issued the NSQS report primarily to address requirements
         under Section 503 of the Water Resources Development Act and assist EPA
         program offices, States, and tribes with decision making. The report identified
         locations where available sampling data indicated a high probability that direct or
         indirect exposure to sediments could be associated with adverse effects to aquatic
         and/or human health. OW based the report on contaminated sediment sampling
         data obtained from OW’s National Sediment Inventory, which was comprised of
         readily available sampling data principally obtained from other Federal agencies
         and States covering the 10-year period from 1990 through 1999.

         Despite EPA’s efforts, the 2004 report did not provide a complete assessment of
         the extent and severity of sediment contamination across the Nation. Also, it did
         not fully meet the requirements of Section 503 of the Water Resources
         Development Act, which requires EPA to: (1) work with the National Oceanic
         and Atmospheric Administration and U.S. Army Corps of Engineers to conduct a
         comprehensive national survey of existing sediment data; (2) biennially report to
         Congress on findings, conclusions, and recommendations; and (3) conduct a
         comprehensive and continuing program to assess sediment quality.

         Although the Water Resources Development Act required a comprehensive
         national survey of existing contaminated sediment data and a comprehensive
         monitoring program, the 2004 NSQS report did not include all available sampling
         data nor provide national coverage of contaminated sediments. For example, the
         report did not include contaminated sediment data from the Great Lakes and from
         Superfund sites. In addition, approximately 68 percent of the data in the NSQS
         report only covered 10 States (Washington, Virginia, California, Illinois, Florida,


                                          19
         Wisconsin, New York, Texas, Oregon, and South Carolina), or 20 percent, of the
         50 States. Further, the NSQS did not cover approximately 91 percent of river
         reaches (the length between two major tributaries ranging from 1 to 10 miles) in
         the contiguous United States and about 46 percent of watersheds nationally. EPA
         recognized these data limitations and designated the NSQS report as a screening-
         level assessment of contaminated sediments.

         The 2004 NSQS report also did not meet the biennial reporting requirement
         specified by the Water Resources Development Act. The 2004 report represents
         an update to the NSQS report EPA issued in 1997. EPA issued the 2004 NSQS
         report approximately 5 years overdue, since the Water Resources Development
         Act required EPA to update the 1997 report in 2 years time.

Assessment Incomplete Because Adequate Design Not Developed
         After interviewing OW officials and reviewing a development document
         supporting the National Sediment Inventory and 2004 NSQS report, we found the
         report incomplete because OW had not developed and implemented a
         methodology and plan for acquiring and compiling data necessary for a national
         assessment. Instead, OW acquired most of the data from databases previously
         known to OW. OW did not establish a formal coordination process for acquiring
         data from all major sources within and outside EPA. In addition, the lack of a
         methodology and plan led to the continued existence of the following key
         limitations from the 1997 NSQS report:

         • Non-random design. OW collected a majority of the data based on a biased
            sampling design. OW collected the data through monitoring programs
            targeting contaminated or potentially contaminated areas. Without the use of
            a statistical sampling methodology, there is no assurance that both
            contaminated and uncontaminated sediments are accurately represented in a
            national assessment of the extent and severity of the contamination. A
            statistical sampling methodology such as EPA’s Environmental Monitoring
            and Assessment Program would provide OW with an unbiased national
            assessment of sediment contamination that would help provide identifiable
            trends. OW could use this program to develop the tools necessary to monitor
            and assess the status and trends of national ecological resources. OW may
            also integrate random sampling results with existing data, thus reducing the
            cost. For example, existing sediment data generated by statistical approaches,
            such as the recent Environmental Monitoring and Assessment Program
            National Coastal Assessment, would reduce the amount of additional
            statistically valid data necessary for the national assessment. The 2005
            version of this report includes results from over 50,000 samples taken from
            over 1,500 randomly selected sites.

         • Critical Data Lacking. Data lacked sample location information (metadata),
            quality assurance/quality control information, and key assessment parameters.


                                        20
              Although sample location data is critical, some of this data was not included
              in the NSQS report because the data was missing or incomplete. Also, key
              assessment parameters, such as Total Organic Carbon and Acid-Volatile
              Sulfide data, were not always available; these parameters are critical to predict
              bioavailability of sediment contaminants. The NSQS report also excluded
              quality assurance/quality control data because information was limited; this
              information is critical because it provides detection limits and other
              parameters necessary for determining the quality of the data.

        •     Hard Copy Data Excluded. Large amounts of data were maintained in paper
              format and thus excluded from the National Sediment Inventory. OW
              officials said this data was not readily available in computerized format and it
              would have been labor-intensive to input manually.

        According to OW, it is working on revisions for the next NSQS report. OW plans
        to perform a data gap analysis between statistically-needed sampling locations
        and existing data as part of the methodology. In addition, OW plans to broadly
        advertise its data needs by conducting national meetings, workshops, and outreach
        to improve national coverage and data quality. However, at the time we
        completed our field work, OW did not have a written plan for the next NSQS
        report, and we could not assess whether OW preliminary planning will provide a
        more complete national assessment.

        OW officials also said that they do not plan on issuing the NSQS report every
        2 years as required by the Water Resources Development Act. They cited two
        primary reasons: (1) sediment contamination does not change that frequently; and
        (2) the public comment and Agency review processes for the report make it
        impossible to meet the timeframe. Even if OW’s position has merit, the reporting
        requirement is mandatory, so the Agency should disclose to Congress that the
        reporting frequency cannot be met and is too frequent to evaluate trends if that is
        the case. EPA has not made such a disclosure. Further, if EPA believes a change
        in reporting frequency is needed, it should indicate the reporting frequency it
        believes is appropriate.

Recommendations

        We recommend that the Assistant Administrator for Water:

        3-1      Develop and implement a plan for future NSQS reports that, consistent
                 with the Water Resources Development Act, provides a comprehensive
                 national assessment of the extent and severity of contaminated sediments.
                 At a minimum the design should:

                 a. Use a statistical sampling approach as the basis for collecting data
                    from EPA and other sources and assessing the national extent and
                    severity of contaminated sediments. As a cost savings alternative,


                                           21
                    consider using statistical sampling in conjunction with existing data
                    for the national assessment. Improve the completeness and availability
                    of sample location information (metadata), quality assurance/quality
                    control information, and assessment parameters for future NSQS
                    reports.

                b. Ensure that the National Sediment Inventory and future NSQS reports
                   include contaminated sediment data from all major sources, including
                   the Great Lakes National Program Office and Superfund program. At
                   a minimum, establish a formal coordination process for acquiring
                   contaminated sediment data from EPA program offices and applicable
                   agencies and organizations outside EPA. Also, consider cost-effective
                   options for acquiring and compiling contaminated sediment data
                   maintained in paper format.

         3-2    Determine a reporting frequency for the NSQS report that is both useful
                for decision makers and achievable for EPA, disclose to Congress that
                EPA cannot meet the current biennial reporting requirement specified by
                Section 503 of the Water Resources Development Act, and provide
                Congress an alternative reporting schedule for consideration.

Agency Comments and OIG Evaluation

         EPA generally agreed with the recommendations. The Agency also provided
         suggested revisions to some details in the chapter and one of the
         recommendations, and we made revisions as appropriate.

         The Agency generally agreed with Recommendation 3-1 and described three
         projects in OW’s 2006 workplan intended to improve the next NSQS report.
         OW plans to hold two workshops to get stakeholder input, have an outreach
         program encouraging other entities to provide data, and work with OSWER on a
         formal process to convert Superfund data to an electronic format. The Agency
         also suggested that we revise Recommendation 3-1 to reflect data collection
         rather than sampling because OW does not interpret Section 503(b) of the Water
         Resources Development Act of 1992 to require EPA to sample sediments. The
         Agency does see the merit in developing a statistically-based study design and has
         agreed to work with ORD to determine if it can develop such a design.

         The Agency’s actions under OW’s 2006 workplan partially address
         Recommendation 3-1, but the actions will not provide a comprehensive national
         assessment of the extent and severity of contaminated sediments. We
         acknowledge that Section 503(b) does not specifically require EPA to conduct
         sampling. However, Section 503(b) does require the Agency to conduct a
         comprehensive and continuing program to assess sediment quality and establish
         minimum requirements for the program. The minimum requirements outlined by
         Section 503(b) do not restrict EPA from establishing a comprehensive program


                                         22
based on a statistical sampling approach. EPA cannot meet these minimum
requirements unless it bases its continuing program to assess sediment quality on
a statistical sampling design coordinated with EPA program offices, other Federal
agencies, and States. Our recommendation does not specifically require that EPA
conduct the sampling (although EPA programs such as Superfund do conduct
sediment sampling). Instead, the recommendation requires that EPA develop and
implement a plan that uses a statistical sampling approach for acquiring the data
necessary to assess the Nation's sediment quality. We revised the
recommendation to clarify that EPA is not required to sample sediments, but
should develop and implement a plan consistent with the Water Resources
Development Act.

In the Agency’s response to the final report, it will need to describe specific
actions it has taken or plans to take to develop a statistical sampling approach as
the basis for collecting data from EPA and other sources, to resolve data quality
issues, and to ensure that contaminated sediment data from all major sources are
included. The Agency’s description should include the results of the three
projects in OW’s 2006 workplan intended to improve the next NSQS report. If
the Agency cannot complete a comprehensive national assessment that is based
on a statistical sampling methodology, it should disclose to Congress that the
national assessment is not possible and that the funds used to generate this report
should be reprogrammed to fund other program activities. The Agency also will
need to provide in its response milestones for completing these actions.

The Agency agreed with Recommendation 3-2. The Agency said that OW plans
to discuss the factors that affect how fast sediment contaminants change, consult
with ORD fate and transport experts, and develop a reporting frequency that is
more consistent with anticipated changes in sediment contaminant levels. The
Agency’s planned actions meet the intent of our recommendation. In the
Agency’s response to the final report, the Agency will need to specify milestones
for completing these actions and provide an alternative reporting schedule to
Congress for consideration.

The Agency’s complete response is in Appendix B.




                                 23
                                                                                  Appendix A

                  Details on Scope and Methodology
We conducted our evaluation from September 2004 to August 2005 in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States.

Our scope included contaminated sediment activities performed by EPA, other Federal agencies,
and selected States. Early in our review, we determined the EPA offices and Federal agencies
involved in the universe of contaminated sediments. We determined the universe of
contaminated sediment sites through a review of the Comprehensive Environmental Response,
Compensation, and Liability Information System and listings provided by OSWER. We did not
independently verify the accuracy of data obtained from Agency sources, but obtained input on
the accuracy from Agency officials.

We evaluated management controls covering Fiscal Year 2002 through 2005 (second quarter).
We generally considered whether the organization, policies, and procedures ensure that
(1) intended results were achieved; (2) resources were used consistent with the Agency mission;
(3) programs and resources were protected from waste, fraud, and mismanagement; (4) laws and
regulations were followed; and (5) reliable and timely information was obtained, maintained,
reported, and used for decision making. We focused on the effectiveness of EPA's program
offices regarding implementation of the Contaminated Sediment Management Strategy.
We found that EPA has not put sufficient effort into implementing the Strategy and had
insufficient measures to evaluate the Strategy’s success.

We took into account the findings of a prior EPA OIG report, Water: EPA’s Great Lakes
Program (Report No. 99P00212, dated September 1, 1999), and the following Government
Accountability Office reports that addressed sediment issues:

                      Report Title                          Report No.              Date
 Water Resources - Future Needs for Confining           GAO/RCED-92-89        July 1992
 Contaminated Sediment in the Great Lakes Region
 Superfund - Information Regarding EPA's Cleanup        GAO/RCED-00-193       September 2000
 Decision Process on the Hudson River Site
 Great Lakes - EPA Needs to Define Organizational       GAO-02-563            May 2002
 Responsibilities Better for Effective Oversight and
 Cleanup of Contaminated Areas
 Great Lakes - An Overall Strategy and Indicators for   GAO-03-515            April 2003
 Measuring Progress Are Needed to Better Achieve
 Restoration Goals
 Great Lakes - Organizational Leadership and            GAO-04-1024           September 2004
 Restoration Goals Need to Be Better Defined for
 Monitoring Restoration Progress

We interviewed officials from various EPA offices, other Federal agencies, and six States. We
judgmentally selected the six States based on recommendations from OSWER and the


                                                   24
Association of State and Territorial Solid Waste Management Officials. The following table lists
the EPA offices and other entities from which we interviewed officials.

                   Offices/Agencies/Organizations
        From Which Officials Were Interviewed During Evaluation
 EPA
  • Office of Solid Waste and Emergency Response
  • Office of Water
  • Office of Research and Development
  • Office of Prevention, Pesticides, and Toxic Substances
  • Great Lakes National Program Office
  • Region 2
  • Region 5
  • Region 9
  • Region 10
 Other Federal Agencies
  • U.S. Army Corps of Engineers
  • U.S. Geological Survey
  • U.S. Fish and Wildlife Service
  • National Oceanic and Atmospheric Administration
  • Department of the Navy
 States
   • California
   • Kansas
   • New Jersey
   • Ohio
   • Virginia
   • Washington
 Other
  • Association of State and Territorial Solid Waste Management Officials

To evaluate whether available Federal authorities and resources provide effective solutions to the
challenges of contaminated sediments, we:

   •   Interviewed EPA officials to gain an understanding of national and regional office
       activities regarding contaminated sediments; and contacted other Federal agencies, the
       Association of State and Territorial Solid Waste Management Officials, and State
       officials to gain an understanding of their activities and coordination with EPA.
   •   Obtained and reviewed the Contaminated Sediment Management Strategy (1998),
       Contaminated Sediments Action Plan (2002), OSWER’s Contaminated Sediment
       Remediation Guidance for Hazardous Waste Sites (2005), OSWER’s Principles for
       Managing Contaminated Sediment Risks at Hazardous Waste Sites (2002), and
       ORD’s Contaminated Sites Multi-Year Research Plan.
   •   Reviewed interagency agreements, research lists, budget spreadsheets, EPA’s National
       Listing of Fish Advisory database, and Geographic Information System shapefiles.
   •   Requested and received lists of research project titles completed during Fiscal Years
       2002-2005 from EPA and the other Federal agencies included in our review. We also



                                                  25
       conducted an online Web site search for research projects by the same agencies. We then
       compiled and categorized a list of contaminated sediment research titles completed by
       EPA and other Federal agencies during Fiscal Years 2002-2005.
   •   Judgmentally selected 13 Superfund and Superfund Alternative Sites from the
       contaminated sediment sites in Regions 2, 5, and 9, and 1 Water Resources Development
       Act site from each of the 3 regions. For each site, we reviewed site files and interviewed
       remedial project managers regarding contaminated sediment activities to determine their
       knowledge of the Strategy and their application of Agency guidance.
   •   Overlaid Geographic Information System shapefiles created from the National Sediment
       Inventory and National Listing of Fish Advisory databases and analyzed the information
       to determine any visual connections between the data. We did not independently verify
       the data we obtained from the two databases, and thus did not draw definitive conclusions
       from the data.

To evaluate how EPA measures the effectiveness of the Strategy and what outcomes EPA has
achieved, we:

   •   Interviewed EPA officials to gain an understanding of measures used to evaluate the
       effectiveness of contaminated sediment work.
   •   Reviewed EPA’s Strategic Plan and Performance Reports.
   •   Obtained EPA’s Contaminated Sediment Site Tracking Tool database and spreadsheets
       and evaluated the information for completeness and potential to evaluate remedy
       effectiveness.

To evaluate whether EPA has completely assessed the extent and severity of sediment
contamination in the United States, we:

   •   Interviewed OW staff to gain an understanding of processes and procedures used for the
       National Sediment Inventory and the NSQS reports.
   •   Reviewed the 1997 and 2004 NSQS reports and the 1994 Framework for the
       Development of the National Sediment Inventory.
   •   Identified major data gaps and the causes for gaps in the 2004 NSQS report.
   •   Evaluated the data acquisition process used for the 2004 NSQS report, but did not verify
       the accuracy of the data used for the National Sediment Inventory and NSQS reports.
       Our focus was to determine causes for reported coverage and quality issues with the data.
   •   Discussed EPA’s plans to obtain an accurate assessment of the extent and severity of
       contamination in the United States.




                                               26
                                                                                    Appendix B

                   Agency Response to Draft Report
                    U N m D STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASH INGTON, D.C. 20460




SUBJECT: Draft Evaluation Report: EPA Can Better Implement Its Strategy for Managing
               Contaminated Sediments

FROM:          Marcus Peacock

TO:            Carolyn Copper
               Acting Assistant Inspector General
               Office of P r o g m Evaluation
               Office of Inspector General

        We appreciate the opportunity to further respond do the draft report on the subject
evaluation, No. 2004-0 1322. Specifically, we have added to our response to Recommendation 1
of the draft report.

        Recommendation 1 (Report Rmmmendafian 2-1): The DepuQ Administrator
establishes a committee or designates an aflce to assume responsibilityfor the oversight arrd
evalunlion ofthe Agency 's contaminatedsediment mamgernent strategy. The designated oflice
OF committee should ensure program ofices w ifh responsibilitiesfor managing and addressing
contamirtated sediment i m e s use the National Sediment Inventory as part of their decision
making processes, and e m w e contaminatedsedimen f issues are managed and addressed
through a cross-program approach,as intended by the Strategv, thar places emphasis on
prevention and contr-01 of contaminated sediments. The designated ofice or committee should
update the Stratem fo reflecr accomplishmenrs made on managing a d addressing contaminated
sediments and incorporate additional actions that Agenq program ofices should take-

        EPA intends to establish an intra-agency committee, by March 17,2006, with the Office
af Warn in the lead, to determine next steps on preventing and managing contaminated
sediments, and to develop an initial workpIm within two months after the committee's
establishment. Further, we agree that it is time to revisit the 1998 Contaminated Sediment
Management Strategy. The Contaminated Sediment Management Strzttegy Iaid out a process for
preventing ecological and human health impairment by abating and controlling sources of
sediment contamination and remediating cwently contaminated sediments. Since the time when
the Strategy was published, EPA has undestaken n number of actions to measure, control and
reduce discharges and emissions of contaminants to the environment. One measure of our
success in addressing this issue is with state-issued fish advisories, The great majority of these
advisories are due to either mercury, which we are now regulating both the direct discharge into


                                               27

water and the deposition from air sources, or chemicals that we have banned. h o t h e r measure
is in the tons of toxic pollutants that have been removed From the environment through both
technological and water quality-based controls instituted through the NPDES permit program.
As a result, we believe we should first assess the degree to which EPA's actions have achieved
the goal of the Strategy before restarting activities that were covered under the Strategy. In
addition, we believe we should focus attention on emerging contaminants which are now
becoming ofconcern due to their potential to adversely affect human health and the
environment. In this way, EPA can work more effectively to prevent new contamination of the
environment, including sediments.

If your staff would Ii ke be discuss these additions, pi ease have them contact Doreen Vetter (202-
564- 1509) in the Ofice of the Administrator.




                                               28

                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460




                                         JAN 0 9 UDti

SUBJECT:       Draft Evaluation Report: EPA Can Better implement Its Strategy for Managing
               Contaminated Sediments

FROM:          Marcus Peacock   &'
TO:            Carolyn Copper
               Acting Assistant Inspector General
               Office of Program Evaluation
               Office o f Inspector General

        Thank you for your memo dated November 17,2005, transmitting the draft report on the
subject evaluation, No, 2004-01322. We appreciate your careful and thoughtful study of EPA's
actions regarding contaminated sediments, specifically with respect to implementing the 1998
Contaminated Sediments Strategy, and we appreciate the opportunity to respond to the draft
report's specific recommendations. In addition, we suggest some additional clarifications to the
draft report in an attachment to this memo.

        Recommendation 1 (Report Recommendation 2-11: Tke Deputy Administrator
establishes a commit fee or designafw an ofice to assume responsibilityfor the oversight and
evaluation qf the Agency 's contaminated sediment management stratep. The designared ofice
or commirtee should ensure program ofices wifh respansibili fiesfor managing and addressing
contaminated sediment issues use the hrarional Sediment Jnventory as purl of rheir decision
making processes, und emure contaminated sediment issues are managed and addressed
t krough a cross-program approach, as intended by the Srraregv, [ha[places emphasis on
prevention an$ control of contaminated sediments.

        We believe that it is time to revisit the1998 Contaminated Sediment Management
Strategy. The Contaminated Sediment Management Strategy laid out a process for preventing
ecologicd and human health impairment by abating and controlling sources of sediment
contamination and remediating currently contaminated sediments. Since the time when the
Strategy was pubIished, EPA has undertaken a number of actions to measure, control and reduce
discharges and emissions of contaminants to the environment, One measure of our success in
addressing this issue is with state-issued fish advisories. The great majority of these advisories
are due to either mercury, which we are now regulating both the direct discharge into water and
the deposition from air sources, or chemicals that we have banned. Another measure is in the
tons of toxic pollutants that have been removed from the environment through both technological
and water quality-based controls instituted though the NPDES permit program, As a result, we


                                               29

believe we should first assess the degree to which EPA's actions have achieved the goal of the
Strategy before restarting activities that were covered under the Strategy. In addition, we believe
we should focus attention on emerging contaminants which are now becoming of concern due to
their potential to adversely affect human health and the environment. In this way, EPA can work
more effectively to prevent new con~aminationof the environment, including sediments.

        Recommendation 2 (Report Recommendation 2-2): The Assistant Administratorfor
Waferand the Assistanf Administratorfor Solid Wasle and Emergency Response coilahorale
with other program oflces with responsibiZities under the Contaminated Sediment Managemenf
Strategy to develop and implement comprehensive and coordinatedperforma~rcememures for
preventing, assessing,and remediating contaminated sediment issues.

         We agree to !oak at our performance measures with respect to contaminated sediments as
part of developing a new Agency Strategic Plan. The overall goal of EPA? current strategic
plan is to prevent ecological and human health impairment. We do have indicators for meeting
this overall goal that reflect the integration of all stressors, including sediments. For example,
the current strategic plan includes sub-objective 2.2.1 which aligns pollution prevention and
restoration approaches to increase the number of watersheds where water quality standards are
met in at least 80%of the assessed water segments. To the extent that contaminated sediments
impair water quality standards, this sub-objective provides an integrated measure of achieving
the overall objective for addressing contaminated sediments, which is preventing ecological and
human health impairments.

        Recommendation 3 (Report Recommendation 2-33; The Assistant Administrator for
water ev~luarcsand reports on fhc need to develop numerical sediment qualify criteria to m i s t
in rhe ranking of sires needingfurther assessment, targel hot spots within an oresfor
remediation, and serve as a pwtiaI basis for the development of State sediment qualiw
smndards.

        In response to EPAts previous Contaminated Sediments Management Strategy developed
in 1994, EPA pubIished several chemical-specific sediment benchmarks to provide guidance to
Regions, States and the regulated community in assessing risk to aquatic organisms from
sediment contamination. These are called the Equi librim-partitioning Sediment Benchmarks
(ESBs) and are available for the following chemicals or chemical mixtures: 1 ) Non-ionic
organics; 2) Dieldrin; 3) Endrin; 4) Metal mixtures (Cadmium,copper, lead, nickel, silver, and
zinc); and 5 ) Polycyclic aromatic hydrocarbon (PAH) mixtures.

        EPA supports the use of these ESBs to characterize the extent of sediment contamination
in a particular area. The 1998 Strategy included the development of sediment criteria and EPA
will continue to evaluate the need for additional sediment assessment measurements, such as
ESBs and criteria, within the context of competing priorities and available resources.

       Recommendation 4 (Report Recommendation 2-4): The Assistant Adminisfrator for
Solid Waste and Emergency Response uses rhe watershed approach,including concepts@om the




                                               30

Urban Rivers Restoration Initiative, at National Priorilies List sifeswith contaminated sediments
where appropriate.

        We recommend that the recommendation be revised to say "consider using" rather that
'buse.'We endorse the cross-programmatic watershed approach as an effective means to
evaluate, remediate and restore impacted watersheds at some selected sites that are of high
priority. This approach has not been widely used at NPL sites to date but does show merit at
some locations. However, due to the resources needed to implement this approach, it cannot be
adopted readily at most NPL sites at this time. The Office of Solid Waste and Emergency
Response (OSWER) has worked with the Office of Water (OW) and Region 8 to draft a new
guidance: Integrating Water and Waste Programs to Restore Watersheds. This manual provides
guidance on hew to integrate assessment and cleanup activities across programs in order to
optimize available tools and resources that can be used to restore m d o r remediate contaminated
waterbodies efficiently and effectively. OSWER and OW are also working together to deveIop
training for Regional staff that may be involved in watershed cleanups. This training should
facilitate the development and use of many of thb approaches and tools described in the manual
such as Watershed Cleanup Project Manager and the Comprehensive Preliminary Watershed
Assessment. The use of this approach in priority watersheds should result in significant
opportunities for streamlining and reducing tlre Final cost of cleanup, restoration, and
redevelopment, resulting in cleaner watersheds for beneficial use.

        Recommendation 5 (Report Recommendation 2-5): The Assistant Administrator for
Solid Waste and Emergency Response con1inues working w ilh the U.S,Army Corps of Engineers
to expand the use o f Water Resources Developmen f Acf funding for additional contarninaied
sediment National Priorities List sites to provide more comprehensive evaluations and
resolutions of contaminated sediment issues.

       The Ofice of Solid Waste and Emergency Response, the Office of Enforcement and
Compliance Assurance, and Region 5 have set up a workgroup to resolve some of the issues
concerning the use of Water Resowes Development Act b d i n g to facilitate the evaluation and
remediation of contaminated sediments. Workgroup members have met with U. S.Army Corps
of Engineers staff several times and will continue to do so until the key issues are resolved.

       Recommendat ton 6 (Report Reco mrnendation 3-61: The Assistant Administratorfor
Research and Development works with [he Assistant Administrator for Solid Waste and
Emergency Response to develop and implement a process that ensures egective communication
bemeen the ofices on contarni~ra!ed  sediment research priorities and status of research
products. in addition, develop a system thar provides the W c e of Solid Wmte and Emergency
Response and other potenrial users with easy nccess to all completed contaminured sediment
research projects.

        We believe that the Office of Research and Development ( O m )has an effective process in
place for OSWER to communicate research priorities. Through the Land Research Coordination
Team activities, annual progress reviews with OSWER, meetings with OSWER staff on specific




                                              31

research activities, and meetings between ORD md OSWER Deputy Assistant Administraton,
ORD has created avenues for 0SWER to communicate its research needs. A recent example of
ORD responsiveness to OSWER's highest priority r e s e a ~ hneeds occurred during 2005. ORD
received OSWER's research priorities at the March 2005 progress review, and input from the
regional workgroup was received in September 2005. Five regional workgroups were formed to
review research needs and the current ORI3 research program. The regional workgroup for
sediments, which included an OSWER representative, concluded that ORD is addressing the
highest priority research needs identified by the regional workgroup.

       The recommendation concerning the communication of research products specific to
contaminated sediments is an important point, and we will discuss ways to address this need,
The issue of easy access to completed projects is also an important one, for contaminated
sediments and other research projects, that i s currently being discussed with the ORD
communication team.

       Recommendation 7 (Report Recommendation 2-71: The Assistant Admirtislralorfor
Research and Development, in coordinc~tionwith other affected Federal agencies, develops and
implements a plan that ensures collaboration and coordination between EPA and orher Federal
agencies on research activities. At a minimum, the plan should ensure that research is not
duplicated by the agencies and that Federal resources are leveraged through coordinated
research eflorts that mest the needs of multiple agencies.

        We request this recommendation be changed as Follows: "Continue collaboration and
communication efforts with other federal agencies to ensure: (1) coordination of research
activities; (2) research is not duplicated by other agencies; and ( 3 ) federal resources are
leveraged through coordinated research efforts that meet the needs of muItiple agencies."

   These voluntary activities will be accomplished through the following:
   - Collaborate with the Strategic Environmental Research and Development Program
      (SERDP) Council, Executive Working Group, and various technical panels to identify
      research needs and evaluate proposals;
   -  Finalize the Memorandum of Understanding with the U.S, Army Corps of Engineers
      (USACE)and the US. Navy (USN);
   -  Work with the U.S. Geologicat Survey (USGS),the National Oceanic and Atmospheric
      Administration (NOAA), and the Technical Advisory Committee for National Sediment
      Inventory on planning and review of inventory-led activities;
   -  Collaborate with USACE, NOAA, U.S. Fish and Wildlife Service (USFW), states, and
      the Contaminated Aquatic Sediment Remedial Guidance Workgroup to develop EPA
       guidance;
   -   Partner with states, USN, USACE, and the Industry on Interstate Technology and
       Research Council (ITRC) to develop state guidance; and
   -   CoIIaborate with USACE, NOAA, the State of South Carolina, private firms, the
       Southern California Coastal Water Research Project, and the State of California Sediment




                                              32

        Quality Objective Scientific Steering Committee to advise the state in the development of
        sediment guide1ines."

       ORD is working with OSWER an a Memorandum of Understanding with the U S Army
Corps of Engineers and US Navy to address issues in this recommendation. ORD has more than
ten workgroup and task force level activities with various Federal agencies on aspects of
contaminated sediments. ORD would be interested in further discussions with the Office of
Inspector General on their search of federal agency publications on sediments to evaluate
agencies involved in research on sediments in addition to those performing biological surveys.

       Recommendation 8 (Report Recommendation 3-1): The Assistant Adminisfrator for
Waferdevelops and implements a plan for future NSQS reports that, consislent with the Water
Resources Development Act, provides a comprehensive nafiottal a.rse.rsmenr offhe extent and
severiv of contaminated sediments. At a minimum the design should:

   0.       Use a slatistical sampling approach as the barisfor assessing the national exrent and
            severity ofconfaminaredsediments. Starisrical sampling may be w d in conjunction
            with existing dolafor the naf ional assessment as a cost savings alternative.
   b.       Improve f he compIereness and uvaiIahilily of samp!e locafion informnrion
            (mesadata), q~u/i?y ~ssurance/quali~   control i?formafion,and assessment
           purumeters for future NSQS reports.
   c.       Ensure tho? contominated sediment datafrom all major sources, including the Great
            Lakes Na/ional Program Oflce and Superfund program, are included in the
           Na~ionalSediment Jmntory and usedforfufure NSQS reporfs. At a minimum,
            estahiish a formal coordinationprocess for acquiring conlaminated sediment data
           from EPA program o f i e s and applicable agencies ~tndorganizafions ou/side EPA.
           Also, consider cost-effectiveoptionsfor acquiring and compiling contuminared
           sediment data that is maintained in paper jbrrnar.

          We appreciate this recommendation. The Office of Water had conducted its own post-
report assessment of the 20Q4National Sediment Quality Survey, and came to similar findings.
OW has included three projects in its 2006 work pIan that addresses in part these findings. The
first is two workshops to be held to obtain input from stakeholders regarding the 2004 National
Sediment Quality Survey. These sessions are designed to gather ideas on how to improve the
next National Sediment Inventory data collection and analysis. The second is an outreach
program to encourage other entities with contaminated sediment data to enter that information
into STORET,which is Ow's repositmy for water quality and sediment information. STORET
is also designed to store the metadata supporting contaminant measurements. By making better
use of STORET, OW will be able to improve the cornplcteness of quality assluance metadata. In
addition, the outreach program is designed to obtain more information for the next National
Sediment Inventory. The third is to convert data from Superfund paper files into an electronic
format for inclusion in the next National Sediment Inventory. Under this project, we will be
developing with OSWER a formal process for acquiring Superfund contaminated sediment data.




                                              33
        We suggest, however, that the first sub-bulk in this recommendation be revised to
reflect data collection rather than sampling. OW does not interpret section 503(b) of the Water
Resources Development Act of 1992 (WRDA) to require EPA to sample sediments. The WRDA
requires EPA to conduct a comprehensive and continuing program to assess aquatic sediment
quality with specific minimum elements, but does not require sampling. We do see the merit in
developing a statistically-based study design to identify the waters where EPA should look for
available data, and if such data are available, EPA would be able to develop a statistically-based
national assessment of sediment contamination. OW will work with ORD to determine if such a
design can be developed.

       Recommendation 9 (Report Recommendation 3-2): The Assisfant Administ~afor           for
Water determines a reporting,frequency for f he NSQS reporf !hat is both usefulfor decision
makers and achievahfefor EPA, discloses to Congress that EM cannot meet the current
biennial reporting requiremen! speci$ed by Section 503 of the WaferResources Development
Act, and provides Congress an alternative reporting schedule for comideration.

        We appreciate this recommendation. As part of the workshops described above, OW
plans to discuss the factors that affect how fast one might expect sediment contaminants to
change given historical pollution abatement controls and natural chemical and physical
processes. From this information and consultation with ORD fate and transport experts, OW
expects to be able to develop a reporting frequency that is more in line with anticipated changes
in sediment contaminant levels. With this information, OW will be able to develop an
alternative schedule for publishing the next report to Congress on sediment contamination.

Clarifications

        The draft report covered a range of subjects related to implementation of programs to
address contaminated sediments, We identified and attached some clarificationsthat we ask you
to consider before issuing the report in final form. If your staff would like to review or discuss
these clarifications, please ask them to contact Jim Pendergast (202/566-0398) in the Office of
Science and TechnoIogy, Randy Wentsel(2021564-32 14) in the Office of Research and
Development, or Steven Els (703-603-8822) in the Office of Solid Waste and Emergency
Response.

Attachment




                                               34

                                        ATTACHMENT
                                 CIarifications to Draft Report



At the bottom of page 2 and the top of page 3, the report should state that EPA has issued
Records of Decisions (RODS) for 60 Tier 1 sites, and clarify that we have not estimated the cost
for any of the ten Tier 2 sites, as no remedies have been proposed for these sites, There are
approximately 50 additional sites without RODS that may be classified as Tier 1 sites in the
future. We don't think the report needs to talk specificaIIy about the Tier 2 CSTAG sites; they
are a subset of the other potential 50 Tier I sites.

Chapter 2

The second buIIet on page 5 implies that program ofices did not coordinate any of their
activities. There has been some coordination, at the headquarters level and substantial
coordination in the Regions at some Superfind sites. T h i s statement should be modified to
reflect this.

The last butlet on page 5 lists the Drufi Contaminated Sediment Remediation Guidance for
Hazardous Waste Sites. The guidance was finalized so ithe text should be changed to reflect the
final guidance.

The following two bullets should be added to the bottom of page 5 to reflect additional efforts
that OSWER has taken to make progress in managing contaminated sediments:

   OSWER sponsored or co-sponsored sevml national meetings on characterizing and
   managing contaminated sediment.
   OSW ER developed and delivered the training course Sediment Remediation: Technical
                                                   Dredging and cap pin^ Remedies to
   Considerariansfor Evaluaf ing and Implerne~tfrlng
   Federal and State personnel in four EPA Regional Offices.

Table 2.1, on page 6, implies that the Superfund program intended to use the National Sediment
Inventory ( M I ) to identify sediment sites for consideration for remedial action. The following is
the actual language on page 26 of the Strategy:

       OERR [now OSRTI] intends to identify sites with contaminated sediments so that they
       can be added to the NSI, and to review high priority contamination sites identified in the
       inventory. These sites can become candidates for assessment under CERGLA. This
       assessment may include evaluation with the Wwardous Ranking System, which is used to
       identify sites that may warsant long-term clean-up undw the Superfund program."

The OTG report should be revised to clarify that it was never the Superfund program's intent to
use the NSI data as a stand alone tool to identify those sites that may need to be remediated.




                                                35

Typically, our state partners identify potential Superfimd sites to EPA for fwther evduation.
EPA then screens these sites using the Hazard Ranking System (HRS).The HRS is a National
Contingency ?Ian (NCP) regulatory process specifically designed to evaIuate the relative
potential of uncontrolled hazardous substances to pose a threat. If the HSR evaluation indicates
a site is eligible for listing, EPA must go though a rule-making to add the site to the NPL. All
these steps in the process are required before a site can be remediated under CERCLA.

On page 7, first full paragraph, we suggest changing the sentence to state that at least one activity
used the National Sediment Inventory. In the 2004 Clean Water Act section 304Zm)plan for
determining for which industrial categories to develop effluent guidelines, the Office of Water
did consider the then draft National Sediment Quality Survey and final 1997 NationaI Sediment
Contaminant Point Source Inventory. See httu://epa.nov/~uide/304dfac tor1 .pdf. This is one
use of the contaminated sediment information as envisioned by the Contaminated Sediment
Management Strategy.

On page 8, second paragraph under the "ActivitiesNot Coordinated"' heading, first sentence, we
suggest changing the sentence to state that some related activities were collaborated upon or
coordinated. For example, OW,ORD and OSWER did coordinate in the deveIopment and
release of the Contaminated Sediments Action Plan in June 2002. This plan reflected the goals
of the 1998 Contaminated Sediments Management Strategy and the 2001 National Academy of
Sciences recommendations, and laid out how EPA would report on our current activities and
accomplishments regarding contaminated sediments, and to serve as a tool for EPA senior
managers to closely coordinate om cross-program activities in the future. The actions by each
o E c e to carryout the Action Plan reflect collaboration and coordination, as did the actions each
office took to carryout its part of the Management Strategy.

Also, OW, OSWER and ORD collaborated in 2004 on a draft Contaminated Sediments Science
Plan to develop and coordinate Agency ofice- and region-wide science'activitiesthat affect
contaminated sediments. This draft plan identifies a number of instances where the offices
coordinated. This plan is another example of where the offices collaborated and coordinated on
a range of contaminated sediments issues. We suggest that the language on page 8 reflect these
activities.

On page 9, the heading states "ORD Has Not Met High Priority Research Needs or Effectively
Coordinated Research." We request the heading be changed to: "Communication and
Coordination Can Be Improved." O W believes that it has been responsive to OSWER's highest
priority research needs, as described the response to recommendation 2-6.

On page 9, paragraph 1, the first Iine, the draft report states that 'QORD research activities have
not fully met OSWER's needs for contaminated sediments." We request this sentence be
deleted. ORD believes that OSWER's needs have been met, as described the response to
recommendation 2-6.




                                                36

On page 9, paragraph 1, last line, the draft report states that '"In addition, OSWER officials said
they could not determine whether their priorities were being met by ORD [sicJ because an
effective communication process had not been established between the two offices." We request
this sentence be deleted. While perhaps the opinion of some OSWER officials, ORD believes
this statement is not supported by fa'actud evidence. Yhoughout the year, OSWER has severaI
opportunities to determine whether priorities are being met and to discuss changes in the research
program. Progress on current research occurs through seminars, involvement in laboratory
implementation plans, planning meetings at the Eaboratories, and the annual progress review.
Additional opportunities for interaction occur through the Land Research Coordination Team
and the meeting of the OSWER and ORD Deputy Assistant Administrators.

On page 9,paragraph 3, first line, the draft report states that "Also, Om's completed research is
not readily accessible to OSWER and the regions." We request the following change to this
portion of the draft report: "Opportunities exist for ORlD to make its completed research more
readily accessible to OSWER and the regions." OORD agrees that improvement opportunities
exist for developing a set of easiIy accessible, media-specific web sites. We are already
beginning work to make our completed research more accessible.

On page 9, paragraph 4,first line, the draft report states that "Further, ORD has not fully
coordinated its research activities with other Federal agencies that conduct research addressing
contaminated sediment issues." We request the following change to this portion of the draft
report: "Further, opportunities exist for ORD to bctter coordinate its research activities with
other Federal agencies that conduct research addressing contaminated sediment issues." A
previous comment describes ongoing coordination and collaboration with other Federal agencies.
Development of the Mern~randumof Understanding cited above will make coordination more
formal and visible.

On page 12, second paragraph under the "Primary Causes" heading, third sentence, please
change the 2001 date to 2001. The last meeting of the Steering Committee occurred in the fall of
2002.


On page 17, first bullet, paragraph under the "Assessment Incomplete" heading, we suggest
changing the characterization OF the bullel to "non-random data collection." OW does not
interpret section 503(b) of the Watw Resources Development Act of 1992 (WRDA} to require
EPA to sample sediments. The WRDA requires EPA to conduct a comprehensive and
continuing program to assess aquatic sediment quality with specific minimum elements. As
such,we suggest that the text of this bullet be revised to reflcct collection of information rather
than sampling.

On pages 17 and 18, we suggest changing the statements about excluding metdata to statements
that say metadata was not included. OW did not decide to exclude metadata. Rather, OW did
not include metadata because OW was not able to obtain all metadata from all soukes.




                                                37
38
                                                                                                               and Fish Advisories




     Legend
        Areas of Probable Concern

        Fish Advisories

        Statewide Fish Advisories
                                                                                     .
                                                                                                     Map Overlay of Areas of Probable Concern




                                                          Map compiled by EPA OIG in October 2005
                                    0   300   600 Miles   from data obtained from the 2004 NSI and
                                                          National Listing of Fish Advisories.
                                                                                                                                                Appendix C
                                                                            Appendix D

                                   Distribution

Office of the Administrator
Deputy Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Water
Assistant Administrator for Research and Development
Assistant Administrator for Prevention, Pesticides, and Toxic Substances
Agency Followup Official
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Followup Coordinator, Office of the Administrator
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Water
Audit Followup Coordinator, Office of Research and Development
Acting Inspector General




                                            39
